           INTERNATIONAL COOPERATIVE RESEARCH
                AND DEVELOPMENT PROGRAM



Report No. 98-121                       April 27, 1998




              Office of the Inspector General
                  Department of Defense
Additional    Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

Suggestions    for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                        OAIG-AUD (ATTN: APTS Audit Suggestions)
                        Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                        Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing the
Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of each
writer and caller is fully protected.




Acronyms

DUSD(I&CP)              Deputy Under Secretary of Defense (International and Commercial
                           Programs)
ICR&D                   International Cooperative Research and Development
ICOG                    International Cooperative Opportunities Group
                        Integrated Product Team
::TO                    North Atlantic Treaty Organization
PA&E                    Program Analysis and Evaluation
USD(A&T)                Under Secretary of Defense for Acquisition and Technology
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202




                                                                          April 27, 1998

MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                         AND TECHNOLOGY
                       ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                         MANAGEMENT AND COMPTROLLER)
                       ASSISTANT SECRETARY OF THE AIR FORCE
                         (FINANCIAL MANAGEMENT AN-D COMPTROLLER)
                       AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:    Audit Report on International Cooperative Research and Development
            Program (Report No. 98-121)


         We are providing this audit report for review and comment. This report is the
fourth report in a series of reports addressing DOD International Armaments Cooperation
efforts which include the Foreign Comparative Testing and the International Cooperative
Research and Development programs. We considered management comments on a draft
of this report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Because the Under Secretary of Defense, Acquisition and Technology, the Army, the
Navy, and the Air Force did not comment on the draft report, we request that the Under
Secretary of Defense for Acquisition and Technology, the Army, the Navy, and the Air
Force provide comments on the report by May 27, 1998. Although not required to
comment, we received management comments from the Acting Director, Program
Analysis and Evaluation, which we considered in preparing this report.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Raymond A. Spencer, Audit Program Director, at
(703) 604-9070 (DSN 664-9070) or Mr. Thomas S. Bartoszek, Audit Project Manager, at
(703) 604-9014 (DSN 664-9014). See Appendix G for the report distribution. The audit
team members are listed inside the back cover.




                                         Robert J.?Lieberman
                                      Assistant Inspector General
                                              for Auditing
                        Office of the Inspector General, DOD
Report No. 98-121                                                                 April 27, 1998
   (ProjectNo.7AB-0026)

      International Cooperative Research and Development Program

                                   Executive Summary

Introduction. International cooperative research and development programs are a family
of programs in which DOD and a foreign ally share in the cost and technology advances of
research and development efforts. The primary objectives of armament cooperation are to
increase military effectiveness through interoperability and standardization, to reduce
weapon acquisition costs, and to share technology. Cooperative projects mclude “Nunn-
funded” and other cooperative research and development efforts, joint productions, data
exchange agreements, and an engineer and scientist exchange program. The research and
development funding provided for the international programs that we reviewed, which
included the Multi-Functional Information Distribution System, the Medium Extended Air
Defense System, the Joint Strike Fighter, the Future Scout and Cavalry System, and
Nunn-Funding programs, was about $949.5 million.

Audit Objectives. The primary audit objective was to evaluate the implementation of the
International Cooperative Research and Development Program for major Acquisition
Category I programs. Another objective was to follow up on the recommendations in
Inspector General, DOD, Report No. 93-009, “International Cooperative Research and
Development,” October 21, 1992, to streamline the memorandum of understanding
process and to centralize management of the international programs. We also evaluated
the adequacy of management controls as they applied to the audit objectives.

Audit Results. DOD took action in response to recommendations contained in Report
No. 93-009. To improve cooperation with our allies in research and development
programs, DOD initiated action by:

         l   establishing a group to identify long-term cooperative   opportunities,

        l  establishing a DOD-wide international agreement database for overseas and
domestic research and development and metrics to measure the results of the efforts, and

         l   improving the international armaments cooperation    training for acquisition
officials.

However, Defense agencies and the Services still do not adequately consider allied
participation early enough in the research, development, and production process of major
Defense Acquisition Category I programs. We sent a survey to 86 Defense Acquisition
Category I programs. We received 37 program managers’ responses as follows:

         l of the 37 responses, 32 (86 percent) did not consider cooperative       opportunities
in the mission need statement,

         l of the 37 responses,    29 (78 percent) did not consider cooperative    opportunities
in the analysis of alternatives, and
         l   of the 37 responses, 26 (70 percent) did not consider cooperative   opportunities
in the acquisition strategy.

By not adequately considering international cooperative research and development
opportunities early in the process, Defense agencies and the Services miss opportunities to
leverage scarce resources, benefit from the technology advances of our allies, reduce the
cost of weapon systems through greater quantities procured, and strengthen
standardization and interoperability with allies.

The Deputy Under Secretary of Defense (International     and Commercial Programs) did not
establish a required management control program.

Summary of Recommendations.         We recommend that the Under Secretary of Defense
for Acquisition and Technology include the Deputy Under Secretary of Defense
(International and Commercial Programs) as a member of the Analysis of Alternatives
Integrated Product Team and require the Defense Acquisition Board to establish exit
criteria for Phase 0, “Concept Exploration,” to include considering international
opportunities.

We also recommend that the Army Training and Doctrine Command, the Chief of Naval
Operations, and the Air Force Chief of Staff document their reasons for approving mission
need statements that do not explore international opportunities and review the process
within the Service to ident@ international cooperative opportunities for Acquisition
Category II and III programs.

Finally, we recommend that the Deputy Under Secretary of Defense (International and
Commercial Programs) establish a management control program that includes procedures
to assess, correct, and report on management controls and ensure that appropriate
personnel receive training.

Management Comments. Although not required to respond, the Acting Director,
Program Analysis and Evaluation, generally concurred with our finding and
recommendations.  However, he provided clarifjring comments on the content of our
report.

Audit Response. The comments that we received were responsive to the finding and
recommendations.  We considered the Acting Director’s comments on the draft report
content and made appropriate changes.

See Part I for a summary of management comments and our response and Part III for the
complete text of management comments. The Under Secretary of Defense for Acquisition
and Technology, the Army, the Navy, and the Air Force did not respond to a draft of this
report dated January 27, 1998. Therefore, we request the Under Secretary of Defense for
Acquisition and Technology, the Army, the Navy, and the Air Force to provide comments
by May 27, 1998.




                                              ii
Table of Contents

Executive Summary                                                                i



Part I - Audit Results

      Audit Background                                                           2
      Audit Objective                                                            3
      Finding A. International Cooperative Research and Development   Program    4
      Finding B. Management Control Program                                     16

Part II - Additional Information

      Appendix A. Audit Process
        Scope                                                                   20
        Methodology                                                             20
        Management Control Program                                              21
        Areas Not Requiring Further Review                                      21
        Organizations and Individuals Visited or Contacted                      22
      Appendix B. Prior Coverage                                                23
      Appendix C. Primary DOD and Service Ofices Involved in International      25
        Cooperation
      Appendix D. Acquisition Process and Key Documents                         28
      Appendix E. List of Acquisition Category I Programs Surveyed              30
      Appendix F. Service Process for Identifying International Cooperative     33
        Opportunities
      Appendix G. Report Distribution                                           35

Part III - Management Comments

      Program Analysis and Evaluation Comments                                  38
Part I - Audit Results
Audit Background
    The International Cooperative Research and Development (ICR&D) program
    promotes collaborative solutions to the national security. Forces, budgets, and the
    Defense industrial base are significantly smaller than at the end of the Cold War in
    1989. Also, the shift to information-based warfare should refocus the need for
    alliance interoperability and standardization of major acquisition programs. The
    way that we acquire and field weapon systems is critical to develop and change to
    superior technology, to afford decisive military capability, and to enhance
    economic security. The technological leadership in cost and performance lies with
    companies and organizations around the globe. The DOD recognizes the need for
    coalition operations to generate interoperability, intelligence sharing, training
    coordination, operations, and mutual trust. The ICR&D program enhances
    coalition warfighting capability and interoperability by linking coalition partners in
    pursuit of common goals. It also enhances U.S. and allied industrial bases by
    capitalizing on each other’s strengths and exploiting economies of scale through
    specialization. The program provides more effective use of limited resources by
    increasing efficiency in funding, personnel, and technology. The new approach of
    DOD for successful international armaments cooperation is pursuing international
    arms cooperation only where it makes sense for 21 st century coalition operations.

    The Deputy Under Secretary of Defense (International and Commercial Programs)
    (DUSD[I&CP]) is responsible for the formulation and implementation of
    international cooperative research, development, and acquisition policy. He also
    manages international cooperation agreements. The Under Secretary of Defense
    for Policy develops policy for alliances and develops, coordinates, and oversees the
    implementation of policy and plans for security assistance. Each Service has an
    international program office that manages, fosters, and facilitates international
    cooperation. Further description of the mission and function of those and other
    DOD and Service offices involved in international cooperation are discussed in
    Appendix C.

    The Defense Reform Initiative Report, issued November 1997, addresses the
    revolution in business affairs within DOD. In that respect, the Secretary of Defense
    transferred the DUSD(I&CP) to the Defense Security Assistance Agency because
    a great portion of the work involved program management and associated
    operational functions. The Program Budget Decision No. 7 1 lR, “Defense Reform
    Initiative-Ofice of the Secretary of Defense and Defense Agencies,”
    December 17, 1997,.made a funding adjustment to reflect changes made in the
    Defense Reform Imtrative Report. The Deputy Secretary of Defense approved the
    funding change subject to his review and approval of the reorganization plan of the
    Under Secretary of Defense for Acquisition and Technology (USD[(A&T]). As of
    April 15, 1998, the USD(A&T) was still developing the reorganization plan.




                                           2
Audit Objective
     The audit objectives were to evaluate the implementation of the ICR&D program
     for major Acquisition Category I programs; follow up on recommendations
     contained in the Inspector General, DOD, Audit Report No. 93-009, “International
     Cooperative Research and Development,” October 2 1, 1992, to streamline the
     memorandum of understanding process and to centralize management of the
     international programs; and evaluate the adequacy of management control
     programs as they applied to the audit objectives. The audit scope and
     methodology, review of the management control programs areas not requiring
     further review, and organizations and individuals visited or contacted are discussed
     in Appendix A. Prior coverage, a summary of actions taken in response to the
     prior audit report’s recommendations, and other reviews are discussed in
     Appendix B.




                                          3
           Finding A. International Cooperative
           Research and Development Program
           DOD initiated action to improve cooperation with our allies in research and
           development programs. The actions included the following:

                    l  founding an International Cooperative    Opportunities    Group to
           identify long-term cooperative opportunities;

                    l  establishing a DOD-wide international agreement database of
           overseas and domestic research and development and metrics to measure
           the results of the efforts, and

                     l improving the international armaments cooperation        training for
           acquisition officials.

           However, Defense agencies and the Services still did not adequately
           consider allied participation early enough in the research, development, and
           production process of major Defense Acquisition Category I programs.
           Responses to our survey from 37 Defense Acquisition Category I programs
           indicated that:

                   l     of the 37 responses, 32 (86 percent) did not consider
           cooperative     opportunities in the mission need statement,

                   l     of the 37 responses, 29 (78 percent) did not consider
           cooperative     opportunities in the analysis of alternatives, and

                   l     of the 37 responses, 26 (70 percent) did not consider
           cooperative     opportunities in the acquisition strategy.

           By not considering international cooperative research and development
           opportunities early in the process, Defense agencies and the Services miss
           opportunities to leverage scarce resources, benefit from the technology
           advances of our allies, reduce the cost of weapon systems through greater
           quantities procured, and strengthen standardization and interoperability
           with our allies.


International Armaments Cooperation
    International armaments cooperation activities are performed jointly between the
    United States and our allies to support national security and foreign policy goals.
    Title 10, United States Code, Section 2350a, authorizes the Secretary of Defense
    to enter into agreements with our allies to conduct research and development on
    Defense equipment and munitions that will improve conventional Defense
    capabilities. The projects must share costs equitably and consider opportunities to
    conduct cooperative research and development projects early. Title 10 also
    requires DOD to consider international opportunities early during the formal DOD


                                            4
    review process. The objectives of international armaments cooperation activities
    are to increase military effectiveness through standardization and interoperability;
    share the cost of research and development, production, and logistics; use the best
    technology available; and maintain a strong industrial base through combined
    acquisitions.


International Cooperation Requirements and Policy
    DOD Directive and Regulation. DOD Directive 5000.1 “Defense Acquisition,”
    March 15, 1996, requires acquisition decisionmakers to observe a hierarchy of
    alternatives, including considering a cooperative development program with our
    allies, before starting a new Service-unique or joint-service program. DOD
    Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System (MAIS)
    Acquisition Programs, ” March 15, 1996, states that decisionmakers must review
    major acquisition programs at milestone decision points before the Defense
    Acquisition Board approves the next phase of the acquisition cycle. The Services
    must prepare key documents, which are the mission need statement, the analysis of
    alternatives, and the acquisition strategy. The mission need statement documents
    deficiencies in current capabilities and identifies potential solutions, including
    international opportunities and known systems or programs addressing similar
    needs, The analysis of alternatives analyzes different alternatives and discusses the
    interoperability and commonality of systems that are similar in function to those of
    allied programs. The acquisition strategy implements programs from program
    execution to post-production support and discusses international cooperative
    research, development, and production. The Defense Acquisition Board reviews
    the documents before approving the program to enter the next phase of the
    acquisition cycle. DOD Regulation 5000.2-R and Title 10 of the United States
    Code require an analysis of international cooperative opportunities.      Appendix D
    contains a description of each of the key documents and the acquisition process.

     Quadrennial Review and Defense Planning Guidance. DOD initiated the
     Quadrennial Review as a fundamental and comprehensive examination of U.S.
     Defense needs from 1997 through 2015. The review states that the United States
     will work with its allies to establish a strategy that emphasizes coalition operations
     and employs international arms cooperation. The FY 1998 through FY 2003
     Defense Planning Guidance directs Defense agencies to pursue international
     cooperation in acquiring Defense systems to prepare for coalition warfare,
     promote equipment standardization and interoperability, and reduce the cost of
     Defense acquisition programs.

     Secretary of Defense Policy Memorandum.         On March 23, 1997, the Secretary
     of Defense stated that DOD policy is to use international armaments cooperation to
     the maximum extent feasible to achieve deployment, to support standardized
     interoperable equipment, and to leverage resources by cost sharing.
Finding A. International      Cooperative Research and Development             Program


       Improvements to
                                                                     The DOD did not            a
       mechanism        share        Defense requirements for the Acquisition Category I
                  with its          However, on         25, 1993, the Deputy Secretary of
       Defense established          Armaments                  Steering
       Committee) to                                   armaments                  policies to
       ensure        DOD               allied          during      acquisition process. In
                         the Committee recommended, and the USD(A&T) approved,
       establishing the International Cooperative Opportunities Group (ICOG), which
       includes the Major System Acquisition ICOG, to examine and identify programs
       with a high potential for success&l international cooperation. On April 9, 1996,
       the Major System Acquisition ICOG reported to the Committee that no process
       existed to periodically and efficiently examine cooperative opportunities.          The
       ICOG recommended expanding cooperative efforts, developing a process to
       periodically examine cooperative opportunities, and offering our allies list of
               major Defense                  programs. The                   agreed and,
       October 1996,             discussing the         at the       Powers National
                     Directors meetings.          Four Powers          meetings semiannually
       discuss cooperative               and issues            member countries,             include
       the          States, France,               and the          Kingdom. In         October
        1997           of the         Powers, DOD              presented the             efforts of
            ICOG to        Directors for           and approval.          proposed that       ICOG
       group                of the        Powers meet every 6 months to address cooperative
       opportunities and the status of ongoing projects. As of April 1998, the Four
       Powers National Armaments Directors had not agreed on the proposals.

       International Agreement Database. The research and development databases
       that DOD and the Services use are ineffective because some overseas locations do
       not have a database and domestic locations, do not contain similar information,
       and are not interlinked. However: DOD established a Tri-Service Working Group
       to formulate a DOD-wide international agreement database that can be shared by
       all interested parties.

                Overseas Research and Development Databases. We visited DOD and
       Service offices in Germany, France, and the United Kingdom to review the
       methods used to store and disseminate information. All offices except one used a
       filing system to store information. The only office maintaining a database was the
       Air Force European Office of Aerospace Research and Development in the United
       Kingdom. The database included international agreements, potential leads, and a
       summary of expenditures. However, other agencies and interested parties do not
       have access to the database because they are not interlinked.

                Domestic Research and Development Databases. The DUSD(I&CP)
       developed a DOD database in 1993 for tracking international program information,
       such as the project title, proponent’s name, status of the project, and date of the
       agreement, if signed; however, the database only included information on
       international agreements. It was not interlinked with the Services and did not
       include projects under consideration. The Army Materiel Command, the Navy
       International Program Office, and the Deputy Under Secretary of the Air Force
       (International Affairs) all maintain separate databases on international research and



                                                 6
  Finding A. International     Cooperative Research and Development         Program


development agreements. The objectives of the databases are to coordinate, staff,
approve, and manage all international agreements. The systems track information
and provide notification of periodic review requirements, but the databases are not
interlinked, and each contains a variety of different data elements. For example,
the Navy database consists of more than 400 individual records that contain
approximately 34 data elements describing the nature of the agreement, value,
current status, points of contact, and pending actions. The Army database includes
a list of international agreements.

         Tri-Service Working Group. In June 1997, DOD and the Services
formed a Tri-Service Working Group to formulate a DOD-wide international
agreement database concept. The T&Service Working Group formulated a
proposal that meets DOD-wide requirements, has common elements, and can be
practically implemented and shared. It also includes metrics to measure the results
of the efforts. DOD plans to test a pilot program in June 1998. If implemented,
the common database will disseminate information to the Services and other
parties here and abroad.

International Armaments Cooperation Training. Between February 1996 and
December 1997, DOD officials identified weaknesses in the international
armaments cooperation training sections in the Acquisition Workforce
Certification Program, in the Acquisition Management Functional Board, and in
the International Acquisition Education Program. DOD officials initiated actions to
correct the deficiencies. The responses of the program managers who replied to
our survey (see the “Identification Process” section in this report) reported the lack
of training. Of the 37 program managers who responded, 30, or 8 1 percent,
indicated that they did not receive any international training, and 23, or 86 percent,
were not aware of ICR&D policies and procedures.

         Acquisition Workforce Certification Program. The USD(A&T)
established the Acquisition Workforce Certification Program to recognize
personnel who achieved professional status by meeting prescribed education,
training, and experience standards for career levels I, II, and III in acquisition
career fields. DOD officials determined that none of the classes designated by the
USD(A&T) for level III Acquisition Workforce Certification in the program
management career field included instruction on international armaments
cooperation. To remedy the lack of instruction, in October 1997, the career
level III training began to include a 2-hour session on international armaments
cooperation, including policies and procedures. At the same time, DOD officials
began to include a half-hour session on international armaments cooperation in
level II training.

         Acquisition Management Functional Board. The Acquisition
Management Functional Board acts as the subject-matter expert for USD(A&T)
on the qualifications and career development requirements for the program
management career field. An International Acquisition Education Working Group
advises and supports the Acquisition Management Functional Board by
recommending broad goals and policies to maintain a viable international
acquisition training and education program. In 1997, the International Acquisition
Education Working Group recommended that the Acquisition Management
Finding A. International   Cooperative Research and Development         Program


       Functional Board include a DOD international representative in its membership.
       On December 12, 1997, the USD(A&T) approved a charter including the
       DUSD(I&CP) as a voting member.

                International Acquisition Education Program. The International
       Acquisition Education Program includes the following three courses: the
       Multinational Program Management Course, the International Security and
       Technology Transfer and Control Course, and the Advanced International
       Management Workshop. However, only the program managers assigned to
       international programs were eligible to attend. The International Acquisition
       Education Working Group determined that, although the program was technically
       accurate, up-to-date, and educationally sound, it did not meet the intent of the
       Secretary of Defense memorandum on international armaments cooperation
       training because it restricted students who could attend. The International
       Acquisition Education Working Group identified six career fields and specific
       criteria within each field to more clearly define target audiences and to help
       identify those who should attend the courses. Actions in that area were ongoing as
       of April 1998.


Acquisition      Category I Programs

       As part of the audit, we distributed 86 surveys to the Defense Acquisition
       Category I programs listed for 1997 to determine whether major acquisition
       programs considered international partnerships during the research and
       development phases. Appendix E lists the programs that we surveyed. The survey
       consisted of five topic areas: ICR&D policies; ICR&D programs; key milestone
       approval documents, which are the mission need statement, the analysis of
       alternatives, and the acquisition strategy; foreign partners and fielded allied
       systems; and training.

       Of the 86 surveys sent, we received 37 responses, consisting of 8 from DOD, 11
       from the Army, 11 from the Navy, and 7 from the Air Force. With the assistance
       of DUSD(I&CP), we selected 11 responses for in-depth review.

       Results showed that Defense agencies and the Services did not consider allied
       participation in the early stages of the research, development, and production of
       major Defense acquisition programs. Of the 37 who responded, 32 (86 percent)
       did not address cooperative opportunities in the mission need statement, 29 (78
       percent) did not address them in the analysis of alternatives, and 26 (70 percent)
       did not address them in the acquisition strategy, as required by DOD Regulation
       5000.2-R. In addition, 14 respondents (38 percent) anticipated potential foreign
       sales but did not identify potential cooperation in key Defense Acquisition Board
       documentation.     The following table shows the responses, by DOD and the
       Services, to the questionnaire.
        Finding A. International        Cooperative Research and Development             Program


                          DOD and Services Responses to Survey

       Elements of Program                             m          Naw        Air Force
                                                                 (percent)

       Total survey responses           8 (100)       ll(lO0)    ll(lO0)      7 (100)     37 (100)
       Potential cooperation not
        identified in the following
       Defense Acquisition Board
        documentation:
        mission need statement          6 ( 71)        9 ( 82)   11 (100)     6 ( 86)     32 ( 86)
        analysis of alternatives        6 (71)         8 ( 73)    9 ( 80)     6 ( 86)     29 ( 78)
        acquisition strategy            4(43)          8 ( 73)    9 ( 80)     5 (71)      26 ( 70)
       Anticipate potential foreign
        sales but potential
        cooperation is not identified
        in the key documents            2 ( 29)        6 ( 55)     2 ( 20)    4 ( 57)      14 ( 38)


Identification       Process

      DOD and the Services did not explore potential international cooperative
      opportunities in the required documentation for the Defense Acquisition Board
      review. In addition, the Defense Acquisition Board review of the mission need
      statement to determine whether DOD or Service components considered
      international cooperative research and development opportunities occurs too late
      in the acquisition cycle to implement an international major acquisition Defense
      program. The process for identifying international cooperative opportunities with
      U.S. allies is described in Appendix F.

     Acquisition Documents. Defense agencies must prepare and present key
     documents, which are the mission need statement, the analysis of alternatives, and
     the acquisition strategy, for all major Acquisition Category ID programs to the
     Defense Acquisition Board.

              Mission Need Statement. Of the 37 responses that we received, 32
     respondents (86 percent) indicated that they had not considered international
     cooperation in the mission need statement. Even when the DOD or Service
     Components identified a potential for partnership, they did not adequately consider
     it. For example, the mission need statement for the Joint Direct Attack Munitions
     program identified no international cooperative research and development partners
     even though the deficiency for more accurate munitions delivery in all weather
     conditions arose from the Persian Gu,lf war. An allied system was in development
     but it did not meet the Joint Direct Attack Munitions requirements. Other allied
     nations that participated in the war could have had the same deficiencies, which
     DOD should have identified and examined.

     Although the Joint Requirements Oversight Council validates the mission need
     statement for all Acquisition Category ID programs, each Service reviews and
     approves it before submitting it to the Joint Requirements Oversight Council. The
     Training and Doctrine Command is the Army approving authority for the mission
     need statement. It relies on integrated concept teams to identifjl possible


                                                  9
Finding A. International    Cooperative Research and Development           Program


       international cooperative opportunities as the Army develops the mission need
       statement. The integrated concept team consists of Army activity experts from
       various disciplines, which may include international personnel in cases of
       international interest. However, the Army International Program Office is not part
       of the approval process for the mission need statement and provides input only
       when requested.

       The Chief of Naval Operations is the Navy approving office for the mission need
       statement, which it reviews for proper format and completeness. Because it has a
       small staff, the approving office relies on subject-matter experts within the Navy to
       identify potential allied cooperation. However, the Navy International Program
       Office does not receive the mission need statement for review or coordination.

       The Air Force Chief of Staff is the Air Force approving authority for the mission
       need statement. The Air Force Deputy Chief of Staff, Air and Space Operations,
       manages and coordinates the mission need statement process. Major Air Force
       commands generally prepare and validate the mission need statement. The major
       Air Force commands rely on technical planning integrated product teams to
       ident@ possible international cooperative opportunities. The product teams
       consist of experts from various disciplines that may include international personnel
       in case of international interest. As part of the coordination process, Air Force
       officials send the mission need statement to the Air Force International mairs
       OffIce for review only in the case of international interest. The international ofice
       has only advisory input to the process, and its comments may not become part of
       the mission need statement that the Air Force finally approves.

       The Commander, Training and Doctrine Command, the Chief of Naval Operations,
       and the Air Force Deputy Chief of Staff should document their reasons for
       approving mission need statements that do not identify international opportunities
       and should review the process within their Service to identify international
       cooperative opportunities.

               Analysis of Alternatives. Of those responding to the survey, 29
       (78 percent) indicated that they did not consider international cooperation in the
       analysis of alternatives. Our review of the Joint Service Advanced Vertical Lift
       Aircraft V-22 showed that the analysis of alternatives considered a foreign aircraft
       that was already in production but decided against it because of cost. The
       program manager did not identify, or evaluate other potential partners; however, he
       expected the aircraft to be used in coalition warfare and saw the potential for a
       foreign market. Navy International Program OfIice officials are encouraging the
       United Kingdom to acquire the aircraft to help reduce the unit cost.

       The Director, Program Analysis and Evaluation (PA&E), oversees the analysis of
       alternatives process. The Services conduct the analysis of alternatives within the
       integrated product team (IPT), the fimctional experts for the system under
       consideration. If the analysis of alternatives IPT does not identifjl a potential allied
       partner during the analysis of alternatives process, and if the mission need
       statement has not identified a potential allied partner, then PA&E will not direct
       the analysis of alternatives IPT to analyze an international cooperative opportunity.
       PA&E officials informed us that the DUSD(I&CP) is not part of the analysis of
       alternatives IPT and has a role only if it already has allied involvement in a similar



                                              10
  Finding A. International    Cooperative Research and Development         Program


project. USD(A&T) should ensure DUSD(I&CP) participates on the analysis of
alternatives IPTs for all major acquisition program reviews so that he may identify
potential international partnerships that the IPT could evaluate.

         Acquisition Strategy Plan. Of the 37 responses received, 26 (70 percent)
indicated that they did not consider international cooperation in the acquisition
strategy. Even though the acquisition strategy requires potential international
partners to be reviewed, that approach is not effective in the acquisition process
because the analysis of alternatives has already addressed the cost, alternatives,
interoperability, and commonality that are similar in function to other systems
under development or to systems that are already fielded. For example, officials
from the Joint Air-to-Surface Standoff Missile program identified the potential for
cooperation with the United Kingdom in the mission need statement, but Air Force
officials did not analyze the United Kingdom’s program until after the acquisition
strategy was prepared. Air Force officials decided not to delay the Joint Air-to-
Surface Standoff Missile contract awarding until the United Kingdom awarded a
similar contract.

Conclusion on Acquisition Documents. Although the mission need statement
requires the preparer to addresses key indicators of potential cooperative
opportunities, it has no mechanism to ensure that the DOD or Service component
considers the similar needs of our allies. The Service validation process does not
determine whether the mission need statement addresses international cooperation.
Before a system can proceed into Phase 0, “Concept Exploration,” the Service
must review the accuracy of information provided and ensure that the mission need
statement addresses a wide range of alternatives. If the Services require the
mission need statements to document their reasons for not exploring international
opportunities, the requirement will ensure that they address all international
opportunities before they forward the mission need statement for approval That
control will help enforce the requirement to consider possible international
participation during the preparation of the mission need statement.

Also, PA&E must ensure that the analysis of alternatives IPT analyzes a full range
of alternatives, including interoperability and commonality to systems that are
similar to those of our allies, to leverage scarce DOD resources. If the program
bases planned resources on international cooperation, other programs could benefit
from the cost avoidance for cases in which cooperation is not a viable option. The
Service Components must assess the ICR&D opportunities early to address
program delays, differences in countries’ funding schedules, and technology
transfer issues. Otherwise, opportunities for international cooperation are unlikely.
One way to achieve early assessment is to include the DUSD(I&CP) on the
analysis of alternatives IPTs so that he can identify opportunities for cooperation
and ensure that the analysis of alternatives IPT analyzes them. If the opportunities
are identified in the mission need statement and analyzed in the analysis of
alternatives, then opportunities will be discussed in the acquisition strategy.

Defense Acquisition Board. The Defense Acquisition Board is the senior-level
forum advising USD(A&T) on Acquisition Category ID or other designated
programs. To provide assistance, oversight, and review of the program as it
proceeds through the acquisition cycle and to support the Defense Acquisition
Board milestone review, DOD establishes an overarching IPT for each program. In
addition, the Service or DOD Component establishes a working level IPT overseen


                                      11
Finding A. International    Cooperative Research and Development         Program


       by the overarching IPT to support the development of strategies for acquisition,
       contracts, cost estimates, and evaluation of alternatives. The working level IPTs
       are the primary ways in which interested Service or Defense agencies, such as the
       warfighter, participate in the early stages of the program.

       The DUSD(I&CP) participates in the overarching IPT and the working level IPT
       by attending their meetings as an advisor to the program manager and, in that
       capacity, provides oversight into the program concerning the international aspect.
       Defense Acquisition Board officials indicated that they rely on the fimctional
       experts in the working level IPT and the overarching IPT to identify all possibilities
       for including international partnerships in the program. If the working level IPT or
       the Defense Acquisition Board overarching IPT identify possible allied
       cooperation, Defense Acquisition Board officials indicated that they do not review
       them until they have the analysis of alternatives and acquisition strategy, which is
       at Milestone I, “Approval to Begin a New Acquisition Program.” The review is
       too late in the acquisition process because the Defense agencies or the Services
       have already prepared the analysis of alternatives and the acquisition strategy,
       which evaluates potential alternatives. A means to ensure that the Defense
       Acquisition Board reviews international opportunities early is to require them to
       establish exit criteria for Phase 0, “Concept Exploration,” that include discussions
       concerning international opportunities.


Other Acquisition          Programs

       Our survey included only Acquisition Category I programs. Some Acquisition
       Category I programs that we reviewed were non-major acquisition programs
       before they became major acquisition programs. Our review of the Follow-on to
       the Tube-Launched Optically Tracked Wire Guided Missile Program showed that
       the Army did not consider international participation until the program became a
       major acquisition category program. Only when USD(A&T) designated the
       program as an Acquisition Category ID program and initiated discussions on
       international cooperation did Army officials identify four potential international
       partners. As of April 8, 1998, the Army analysis of alternatives was exploring
       different alternatives, including international alternatives.

       A review of the process for the Services identifj4ng potential international partners
       for all programs will help them determine whether they are meeting the intent of
       the Secretary of Defense March 23, 1997, memorandum.         The Ballistic Missile
       Defense Organization’s policies and procedures for identi@ing and assessing
       potential international partners could be used as a model to assist Defense agencies
       and the Services in establishing a process to consider international cooperation.
       The Ballistic Missile Defense Organization management procedures include
       identifj4ng international cooperative opportunities before approving concept
       studies. In that respect, the Ballistic Missile Defense Organization included
       acquisition and readiness offices as parties responsible for identiqing and assessing
       potential opportunities and obtaining reasonable assurance that officials give
       adequate consideration to potential international cooperation.




                                             12
      Finding A. International     Cooperative Research and Development          Program


Conclusion
    DOD        taken significant action to improve the ICR&D process and the
    understanding of the process. However, to be more effective, the process must
    identify international cooperative opportunities very early. The successful ICR&D
    of major weapon systems begins with the warfighter identifying a mission
    deficiency early in the requirements definition phase. If potential allied
    cooperation is an alternative, DOD officials must consider it at Phase 0, “Concept
    Exploration,” because that phase consists of studies to define and evaluate the
    feasibility of alternative concepts and to provide the basis for determining the
    merits of the concepts at the next milestone. Only then can acquisition personnel
    develop a common solution. DOD must develop a process to periodically,
    systematically, and efficiently harmonize requirements with our allies and develop a
    common solution. The process would begin with requirements determination
    personnel identifying a potential cooperative opportunity in the mission need
    statement, the analysis of alternatives IPT evaluating it in the analysis of
    alternatives, and the acquisition community implementing it through the acquisition
    strategy. If the Defense Acquisition Board establishes exit criteria for Phase 0,
    “Concept Exploration,” that addresses ICR&D opportunities, the Services
    document reasons for not exploring ICR&D opportunities in the mission need
    statement, and the analysis of alternatives IPT includes as a member the
    DUSD(I&CP), the actions will ensure consideration of international opportunities
    and, if appropriate, implementation through the acquisition strategy.

    If DoD and the Services aggressively pursue international cooperation where
    possible, they will reduce the cost of weapon systems through greater quantities
    procured and sharing of research, development, and production costs. In addition,
    they will meet the intent of Defense planning guidance, the Quadrennial Review,
    and the Secretary of Defense Policy Memorandum in exploiting the best
    technology available and ensuring the interoperability and standardization of our
    weapon systems.


Other Management Comments and Audit Response to the
Finding
    Other Management Comments. Although not required to respond the Acting
    Director, Program Analysis and Evaluation, generally concurred with our finding
    and recommendations. However, he disagreed with our conclusion that the Joint
    Direct Attack Munitions program did not consider international cooperation. The
    Acting Director stated that the acquisition approach was to satisfy an urgent
    military need and, accordingly, was a fast track program for acquisition reform.
    He stated that the allied system mentioned in our report was considered but did not
    satisfy the requirement. The Acting Director also disagreed with our interpretation
    of their role in the integrated product team and the team’s participants. He
    suggested clarifying language.

    Finally, the Acting Director stated that the draft report incorrectly implied that the
    Air Force planned to wait until after the United Kingdom’s award of its contract
    for the Conventional Armed Standoff Munitions to make a decision on the Joint


                                          13
Finding A. International   Cooperative Research and Development       Program


       Air-to-Surface Standoff Missile program to satisfy the international cooperation
       requirement. The Air Force did not delay the decision on the program but
       cooperated with the United Kingdom in the acquisition process. The United
       Kingdom participated in the source selection process to determine whether the
       Joint Air-to-Surface Standoff Missiles program contractor would satisfy the
       requirements of the United Kingdom’s Conventionally Armed Standoff Munitions
       program. When the United Kingdom selected the Conventionally Armed Standoff
       Munitions contractor, its design would not meet our requirements.

       Audit Response. Our report correctly states that the mission need statement for
       the Joint Direct Attack Munitions program did not consider international
       cooperation even though other allied nations who participated in the Gulf War
       could have the same need. The Acting Director implied that, because this is an
       acquisition reform program, the Joint Direct Attack Munitions does not need to
       consider international cooperation. We do not agree. On September 20, 1995,
       almost 3 years after the Joint Requirements Oversight Council validated the
       mission need statement, the USD(A&T) delegated and issued to the program
       manager for the Joint Direct Attack Munitions program waiver authority for
       procedures in DOD Regulation 5000.2-R not required by statue, executive order,
       or milestone reviews. The USD(A&T) granted the waiver authority due to the
       program’s designation as an acquisition reform pilot program. Even if the waiver
       authority had been in place when the program office prepared the mission need
       statement, the waiver authority still required the program manager to document a
       waiver and concurring legal opinion for exemption from seeking international
       cooperation. Concerning the Integrated Product Team and its participants, we
       changed our report to reflect the language proposed by the Acting Director.

       On the Joint Air-to-Surface Standoff Missiles program this report clearly states
       that Air Force officials decided not to delay the Joint Air-to-Surface Standoff
       Missile contract award until the United Kingdom awarded a similar contract. Our
       report reflects statements expressed in the Joint Air-to-Surface Standoff Missile
       program’s Single Acquisition Management Plan, May 8, 1996. The plan
       concluded that the Air Force decided not to wait until the United Kingdom
       awarded the contract but to proceed because waiting could potentially cause a
       delay of 3 to 6 months in the contract award.


Recommendations for Corrective Action
       A.l. We recommend that the Under Secretary of Defense for Acquisition
       and Technology:

              a. Include the Deputy Under Secretary of Defense (International and
       Commercial Programs) as a member of the analysis of alternatives Integrated
       Product Team.

               b. Require the Defense Acquisition Board to establish exit criteria for
       Phase 0, “Concept Exploration,” to include discussions concerning
       international opportunities.




                                           14
         Finding A. International   Cooperative Research and Development      Program


       A.2. We recommend that the Commander, Army Training and Doctrine
       Command; the Chief of Naval Operations; and the Air Force Chief of Staff:

              a. Document reasons for approving mission need statements that do
       not explore international opportunities.

              b. Review the process to identify international cooperative
       opportunities for Acquisition Category II and III programs.


Management Comments Required
The Under Secretary of Defense for Acquisition and Technology, the Army, the Navy, and
the Air Force did not respond offkially to a draft of this report. We request that they
provide comments by May 27, 1998.




                                          15
           Finding B. Management Control
           Program
           The Deputy Under Secretary of Defense (International and Commercial
           Programs) did not establish the required management control program to
           assess, test, correct, and report on management controls. The lack of a
           control program resulted because the Deputy Under Secretary only
           emphasized fiscal controls, did not properly emphasize the importance of
           program management controls, and did not provide adequate training to
           responsible personnel. Although management took some immediate
           actions, additional steps are necessary. As a result, the DOD International
           Programs OfEce could not ensure that its functions complied with Office of
           Management and Budget and DOD policies and procedures.


Management Control Policy
    Offke of Management and Budget Policy. Ofice of Management and Budget
    Circular A- 123, Revised, “Management Accountability and Control,” June 2 1,
     1995, provides great flexibility by giving agencies the discretion to determine
    procedures to use in the proper stewardship of Federal resources. Circular A-123
    does not require agencies to institute a separate management control process, but,
    instead, it gives agencies the discretion to determine the procedures to use in
    establishing, assessing, correcting, and reporting on management controls.

    DOD Policy. The revised DOD Directive 50 10.38, “Management Control (MC)
    Program,” August 26, 1996, and DOD Instruction 5010.40, “Management Control
    (MC) Program Procedures,” August 28, 1996, require DOD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls. In addition, the regulations require the continuous
    monitoring of management controls for improving the effectiveness and efficiency
    of management’s operations to achieve its mission. Management control
    objectives include complying with applicable laws; safeguarding assets; accounting
    for revenues and expenditures; and avoiding fraud, waste, and mismanagement.      In
    addition, DOD management must take appropriate action to assess, test, correct,
    and report on management controls and provide appropriate training to personnel.


Management Control Program
    The DUSD(I&CP) did not establish a management control program as required by
    DOD Directive 5010.38 and DOD Instruction 5010.40. Although the
    DUSD(I&CP) submitted the annual statement of assurance for FY 1996 to
    USD(A&T) as required, it was based solely on a financial control evaluation of the
    system of internal accounting and administrative control system that was in effect




                                         16
                                           Finding B. Management       Control Program


     during the fiscal year ending September 30, 1996. The DUSD(I&CP) did not
     emphasize management controls and did not ensure that responsible officials were
     trained to assess whether the program was operating as intended.

     We informed the DUSD(I&CP) that not having a comprehensive system of
     management controls and not having adequately trained personnel inhibited
     management from identifying functions that require attention, such as establishing
     a common database for cooperative research and development activities that is
     discussed in Finding A. As a result, the DOD International Programs Office could
     not determine whether its tinctions complied with Office of Management and
     Budget and DOD policies and procedures. The lack of a sufficiently
     comprehensive management control program is, in itself, a material control
     weakness.


Actions Taken
     DUSD(I&CP) officials agreed to take systematic and proactive measures to
     develop a management control program, train key personnel who are responsible
     for ensuring that management controls are in place, test the controls continuously,
     and correct and report on deficiencies when they detect a material weakness.

     Officials immediately identified the DOD programs and management processes
     affecting international cooperative research, development, and acquisition in
     accordance with Office of Management and Budget Circular A-123. The
     programs included the North Atlantic Treaty Organization (NATO) Research and
     Development Program and the Defense Cooperation in Armaments Program.
     They identified the following six management processes: the International
     Agreement Process; the Cooperative Opportunities Document Process; the DOD
     Military Requirements Generation and Approval Process; the Armaments Group
     Process; the DOD Planning, Programming, and Budgeting System Process; and the
     National Disclosure Policy Process.


Additional Steps Needed
    The DUSD(I&CP) must take additional steps to comply with DOD Directive
    5010.38. The DUSD(I&CP) must determine the procedures for assessing,
    correcting, and reporting on management controls and determine how to evaluate
    the effectiveness of those controls to help ensure that appropriate action is taken
    throughout the year to meet the objectives of DoD Directive 5010.38. The
    DUSD(I&CP) must also ensure that the appropriate personnel are trained in their
    duties and responsibilities in accordance with DOD Directive 5010.38. See
    additional comments in Appendix A.




                                          17
Finding B. Management     Control Program


                          for Corrective Action
       B. We recommend that the Deputy Under Secretary of Defense
       (International and Commercial Programs):

               1. Establish a management control program that includes procedures
       to assess, correct, and report on management controls.

              2. Require that the appropriate personnel are properly trained.


Management Comments Required
The Under Secretary of Defense for Acquisitidn and Technology   did not
                                                                  by May 27, 1998.




                                           18
Part II - Additional Information
Appendix A. Audit Process



Appendix A. Audit Process


Scope
      We examined the process and criteria used to select candidate projects for the
      ICR&D programs, the management of the individual projects, and their
      continuation when research and development is completed. We distributed
      surveys to the 86 Acquisition Category I programs listed in Appendix E to
      determine the effort made to consider international cooperation. We reviewed 11
      programs that included a selection from the Services and the Ballistic Missile
      Defense Organization. The programs are the Future Scout and Cavalry System,
      the Joint Strike Fighter, the Medium Extended Air Defense System, the Multi-
      Functional Information Distribution System, Cooperative Engagement Capability,
      the Advanced Field Artillery System/Future Armored Re-Supply Vehicle-
      Crusader, the Defense Message System, the Follow-on to Tube-Launched
      Optically Tracked Wire Guided Missile, the Joint Air-to-Surface Standoff Missile,
      the Joint Service Advanced Vertical Lift Aircraft V-22, and the Joint Direct Attack
      Munitions.


Methodology
      We conducted this economy and efficiency audit from January through December
       1997, in accordance with auditing standards issued by the Comptroller General of
      the United States, as implemented by the Inspector General, DOD, and evaluated
      the adequacy of the management control program as it related to the audit
      objectives.

      We reviewed material dated from October 1992 through October 1997. We
      evaluated the policies and procedures of the DUSD(I&CP) and Defense agencies
      for selecting, developing, and managing the programs. We compared and analyzed
      the process and criteria for program selection, the process for determining the
      program’s effectiveness, and the continuation of the program after the research
      and development effort is completed. The audit did not rely on computer-
      processed data or statistical sampling techniques. The audit used the September
       1997 listing of Acquisition Category I programs that we obtained from the
      USD(A&T). We interviewed officials from Offrce of Secretary of Defense and
      DOD Components.       Also, we distributed 86 surveys to the Defense Acquisition
      Category I programs listed for 1997. The survey consisted of five topic areas,
      including ICR&D policies; ICR&D programs; key milestone approval documents
      including the mission need statement, analysis of alternatives, and the acquisition
      strategy; foreign partner and fielded allied systems; and training. We received 37
      responses to the 86 surveys sent to Acquisition Category I program managers.




                                          20
                                                          Appendix A. Audit Process


Management Control Program
    DOD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DOD managers to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of those controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of DUSD(I&CP) and DOD Component management controls over the
    selection, management, and continuation of the programs into production. In
    assessing those controls, we evaluated plans and procedures, written policies, and
    management-initiated reviews.

    Adequacy of Management        Controls. The DUSD(I&CP) did not establish an
    effective management control program to assess, identify, track, and report on the
    adequacy of management controls as discussed in Finding A and B. The Military
    Department controls also were not fully effective as addressed in Finding A.
    Therefore, management must take further steps. The recommendations in this
    report, if implemented, will correct the problems. A copy of the report will be
    provided to the senior officials responsible for management controls in the Offices
    of the USD(A&T) and the Under Secretary of Defense (Comptroller).

    Adequacy of Management’s    Self-Evaluation. As stated above, the Office of the
    DUSD(I&CP) did not establish a comprehensive process to evaluate management
    controls in the program.


Areas Not Requiring Further Review
    Nunn-funded    Projects. Congress established funding for the NATO research and
    development projects in the FY 1986 DOD authorization to urge DOD to pursue
    opportunities with NATO to cooperate in research, development, and production
    of Defense systems. Each year, the USD(A&T) submits a report on Nunn-funded
    programs to Congress. The report identifies and describes the programs selected
    to receive Nunn-funding and the programs that DOD characterizes as successful.
    For FY 1997, total Nunn-funding was about $50 million. The majority of Nunn-
    funded projects are non-major projects because of the small funding appropriated.

             Selection Process. DOD uses a steering committee to review the proposed
    projects submitted by the Services. The steering committee has no criteria other
    than its expertise to evaluate proposed projects. The committee maintains no
    minutes of the meetings. The Services’ selection process is similar. Service
    proponents send candidate projects to the Services’ International Program Offrce,
    which reviews them for legal and financial completeness and forwards them to
    DOD for possible selection. However, the Army and the Navy do not prioritize the
    projects that they propose.

            Continuation of Projects. DOD officials have no criteria to measure the
    success of a Nunn-funded project because it is difficult to assign a metric to the
    types of projects that receive Nunn-funding. The 1997 Report to Congress on the


                                         21
Appendix A. Audit Process


      ICR&D programs cites that more than 60 programs have successfully transitioned
      into new operational capability, while others are important segments to larger
      programs.                                      a
      Tri-Service Measurement Metrics. During the audit, a u-i-service international
      program group was defining measures for success and developing a DOD-wide
      database to track international agreements. The efforts of the group may lead to
      improved metrics to quantify success for an international program. Congressional
      doubts about DOD management of Nunn-funded projects have already resulted in
      funding cuts of $150 million since 1986. DOD officials could reduce the possibility
      of further budget cuts by improving the management of Nunn&nded        projects and
      by defining criteria for the selection and conclusion of Nunn-funded projects. We
      did not identify the issues concerning Nunn-funded projects as a finding or make
      recommendations because:

              l Congress was aware of the issues through the DOD annual report,
      through the Service programs that were selected to receive Nunn-funding, and
      through the programs that DOD identified as successful; and

              l  DOD has a group that is working to identify metrics to measure success
      and to establish a database for international programs.

      Management of the International Programs. We met with users, program
      managers, and senior DOD officials to evaluate whether the selection process for
      programs was adequate. For each program, we reviewed IPT minutes, funding
      history, program costs, operational requirements documents, memorandums of
      understanding, and steering committee minutes. The process that the Services and
      DOD used to determine whether the management of the program was effective was
      working. The steering committee and the oversight committees addressed and
      resolved issues as they were identified.


Organizations and Individuals Visited or Contacted
      We visited or contacted individuals and organizations within DOD; the General
      Accounting Offrce; and the NATO Medium Extended Air Defense System
      Management Agency, Huntsville, Alabama. Further details are available on
      request.




                                           22
                                                            Appendix B. Prior Coverage




Appendix B. Prior Coverage


Prior Audit
     Inspector General, DOD, Report No. 93-009, “International Cooperative
     Research and Development,” October 21, 1992. The audit evaluated the
     effectiveness of procedures to implement the ICR&D program. The report states
     that DOD was not actively or effectively pursuing international cooperation to
     meet its research and development requirements. The report recommended that
     the Deputy Secretary of Defense delegate authority to the Deputy Under Secretary
     of Defense (International Programs), now called the DUSD(IC&P), to:

             l streamline the memorandum of understanding processing procedures      and
     expedite the issuance of pending instructions on international cooperation;

            l   resolve conflicts over the issuance of guidance; and

            l   establish cooperative   programs for international cooperation

     The report also recommended that the Directors of Defense agencies and the
     Service Acquisition Executives establish management controls to ensure that
     program managers evaluate the feasibility of cooperative programs. The Deputy
     Secretary of Defense deferred comments on the draft report until the final report.
     The Under Secretary of Defense for Acquisition, renamed the USD(A&T),
     concurred with the recommendations except for realigning the Office of Defense
     Cooperation under the Deputy Under Secretary of Defense (International
     Programs), which was later dropped. The DOD and the Services concurred, in
     principle, with establishing management controls to ensure that program managers
     evaluate the feasibility of cooperative programs.

    In response to the audit report, in September 1994, the Deputy Secretary of
    Defense established interim policy to streamline the memorandum of understanding
    process. The Deputy Secretary assigned new staffing procedures and timelines to
    reduce the international agreement development time. The procedures included a
    three-step process that included: the initiation of a summary statement of intent to
    negotiate with our allies, informal negotiations, and formal review and approval of
    international agreements.

    In addition, in May 1996, the Principal Deputy Under Secretary of Defense for
    Acquisition and Technology established the Office of the DUSD(I&CP) to assume
    responsibilities that included policy for specific dual-use-technology functional
    areas and policy, plans, and programs for commercial product insertion
    investments relative to Defense applications. Further, because DOD and the
    Services could not agree on guidance for international cooperation, the
    DUSD(I&CP) issued the “International Armaments Cooperation Handbook,” in
    June 1996. The Handbook is not policy and does not authorize DOD Components
    to carry out stated responsibilities but only provides information about the
    instruments, processes, procedures, and programs that collectively make up the
    international armaments cooperation effort. The Handbook focuses on policy and


                                            23
Appendix B. Prior Coverage


      legislation; organizations and forums supporting international cooperation; the
      memorandum of understanding process; international programs, such as data
      exchange agreements, in which participants exchange information and share costs;
      and the foreign comparative testing program, in which DOD tests foreign systems
      to determine whether they can meet the identified deficiency.

      In June 1996, the Deputy Secretary of Defense established an Armaments
      Cooperation Steering Committee to lead the renaissance in armaments cooperation
      by leveraging our resources, exploiting the best technology, and ensuring the
      availability of interoperable equipment. In turn, USD(A&T) established the
      International Cooperative Opportunities Group, discussed in Finding A, to help
      harmonize requirements with our allies and establish cooperative programs.


Other Review
      “Report of the Defense Science Board Task Force on International
      Armaments Cooperation,” August 1996. In 1996, the USD(A&T) requested
      the Defense Science Board to investigate a description of a generic model of
      international cooperation for the 2 1st century and to ident@ specific management
      actions that DOD must implement to allow successtil program execution on
      international efforts. The Defense Science Board proposed a model that provides
      for selection criteria based on common coalition needs, necessary policy,
      procedural and organizational changes, the national option for scouring critical
      Defense capabilities and technologies in Europe and North America, and the
      potential to realize greater collective cooperation as the process matures. The
      Defense Science Board urged USD(A&T) to assign outstanding officers to
      international programs, elevate intentional experience to the same level as joint
      duty in the selection criteria for promotions, convene the Commander-in-Chiefs
      frequently enough to create an advocacy group for interoperability and relationship
      building, reward success in international efforts, and establish a project team to
      review 50 international programs and to make recommendations for long-term
      improvements.     The process is ongoing through the Armaments Cooperation
      Steering Committee and the ICOG.




                                           24
Appendix C. Primary DOD and Service Offices
Involved in International Cooperation


DOD
      The Deputy Under Secretary of Defense (International and Commercial
      Programs). The DUSD(I&CP) serves as the focal point for Defense-related
      international research, development, and other acquisition actions that involve
      cooperation between the U.S. Government and other governments or industries of
      allied nations. He manages informal and formal arrangements, coordinates DOD
      bilateral armaments cooperation relationships with the nations, and implements
      policies and programs established by the President and the Secretary of Defense
      for strengthening rationalization and interoperability within areas of responsibility.

      The Under Secretary of Defense for Policy. The Under Secretary of Defense for
      Policy represents DOD for formulation of national security and Defense policy and
      the integration and oversight of DoD policy and plans to achieve national security
      objectives. He develops policy for Defense-related international negotiations and
      represents DOD in those negotiations. He also develops policy on the conduct of
      alliances and Defense relationships with foreign governments, their military
      establishments, and international organizations, and integrates and oversees plans
      and programs undertaken in conjunction with those alliances and Defense
      relationships.

      Director, Program Analysis and Evaluation. The Director, Program Analysis
      and Evaluation, is the principal staff assistant to the Secretary of Defense for
      program analysis and evaluation. The Director performs analyses and evaluations
      of plans, programs, and budget submissions in relation to projected threats, allied
      contributions, estimated costs, resource constraints, and DOD objectives and
      priorities. In addition, the Director identifies issues and evaluates alternative
      programs; initiates programs, actions, and tasking to ensure adherence to DOD
      policies and national security objectives; and ensures that programs are designed to
      accommodate operational requirements and promote the readiness and effxiency
      of the United States.

      DOD Overseas Liaison Offkes. DOD has ofices of Defense cooperation and
      security assistance in many U.S. embassies. The offices assist technical project
      offices and Service international program offices to obtain information on and
      assess the opportunities for cooperative projects with the host nation. They are
      responsible for overseeing and implementing in-country security assistance and
      foreign military sales activities and are significant in facilitating cooperation in
      research and development.                 I




                                            25
Appendix C. Primary DOD and Service Offlces Involved in
International Cooperation


Army
      The Deputy Under Secretary of the Army (International Affairs). The Depu tY
      Under Secretary of the Army (International Affairs) is responsible for the
      armaments Cooperative Research and Development Program and reviewing and
      coordinating international agreements, including the management of foreign
      comparative test programs. He reviews and coordinates Army international
      agreements and cooperative logistics, supports the NATO Army Armaments
      Group panels, and tracks and reports on the financial management of armaments
      cooperation programs. The Deputy Under Secretary also provides a centralized
      management database for international cooperative programs; provides an
      overseas presence in selected countries; promotes Multi-National Force
      Compatibility; negotiates and monitors international agreements; identifies
      opportunities for cooperation; and facilitates Army access to foreign research,
      technology, and materiel.

      Army Overseas Liaison Of&es. The Army maintains research, development,
      and standardization groups in Australia, Canada, France, Germany, and the United
      Kingdom. The groups are responsible for all aspects of international cooperative
      activities, with an emphasis on maintaining links between Army research
      establishments and those of the host nation. The Army also has research offices in
      the Far East. The of&es sponsor basic research through grants and contracts.



Navy
      The Assistant Secretary of the Navy (Research, Development, and
      Acquisition).    The Assistant Secretary of the Navy (Research, Development, and
      Acquisition) is responsible for developing policy and oversight for Navy
      international research, development, and acquisition efforts including international
      armaments cooperation. He established the Navy International Program Office,
      which is responsible for all international armaments cooperation activities,
      including cooperative research and development agreements, security assistance,
      and international programs including cooperative research, development,
      production, in-service support, foreign comparative test and evaluation, foreign
      procurement, personnel exchange actions, data exchange agreements, and no-cost
      loans.

       Navy Overseas Liaison Offkes. The OffIce of Naval Research maintains
       research and development liaison offices in the United Kingdom and in Japan. The
       foreign field offices survey worldwide findings, trends, and achievements in science
       and technology and establish and maintain liaison between the Navy and foreign
       organizations that conduct programs of interest to the Navy. Liaison includes
       international, bilateral, and multilateral cooperative research and development
       programs, foreign weapons programs, and scientific and technical exchange
       programs.




                                            26
                        Appendix C. Primary DOD and Service Offices Involved in
                                                    International CooDeration


Air Force

     The Deputy Under Secretary of the Air Force (International Affairs). The
     primary focus of the Deputy Under Secretary of the Air Force (International
     Mairs) is oversight of foreign military sales and security assistance programs. He
     is also responsible for international programs. Also, he oversees international
     cooperative research, development, and acquisition programs. Program offke
     activities include managing the foreign comparative test programs, reviewing and
     coordinating ah international agreements, performing cooperative logistics, and
     supporting the NATO Advisory Group for Aerospace Research and Development.

     Air Force Overseas Liaison Offkes. The Air Force maintains a European and an
     Asian Ofice of Aerospace Research and Development, which are an extension of
     the Air Force Offke of Scientific Research. The office monitors basic and applied
     aerospace-related technology and maintains close contact with Air Force
     laboratories to provide continuing assessments of technical areas for potential
     cooperative research.




                                         27
Appendix D. Acquisition Process and Key
Documents

   The DOD Regulation 5000.2-R “Mandatory Procedures for Major Defense
   Acquisition Programs (MDAPs) and Major Automated Information System
   (MAIS) Acquisition Programs,” March 15, 1996, establishes a general model for
   managing all DOD acquisition programs, Defense agencies and Services may tailor
   the model as needed to structure their programs into a logical progression of time
   periods separated by decision points or milestones to reduce risk, ensure
   affordability, and provide management information for decisionmaking.     The model
   and the description of Defense Acquisition Board documents that are critical to an
   effective search for international cooperative opportunities follow.


                                 Analyze and
          Identify                 Document
            Potcntirt              Potential
            ICR&D                  ICR&D

          ______
            Opportunities         Oppotiuniticn


         r                         PHASE 0

                                   CONCEPT
                                                  1
                                                  I
                                                         PHASE I

                                                          ?ROGRAM
                                                                            1     PHASE II

                                                                                 ENOlNEfRlNG     S
                                                                                                     I        PHASE III

                                                                                                         FRODUCTIDH    FIELUNGI
                                                                                                                                  I

                                 UPLOfwTlON           DWINITION    &RISK        MANUFACTURING               DEFLOYMENT.    &
                                                         REDUCnON                DEVELOPMENT             OFERATIONAL   SU?PORf

           ______




                    Milestone 0           Milcstonc I                  Mileatone II            Mllatonc II1
                      Approval to:          Approval to:                 Approval to Entct       Production or
                        Conduct               Begin L New                  Engineering and       Fielding/
                        Concept               Acquisition                  M8nufactuhg           Deployment
                        Studies               Pmgram                       Dcvelopmcnt            Appmval


                    Approval ol:              Approval ofz
                      MiSSiOll                  Acquisition Strategy
                     Need
                     Statement                Completion ok
                                               Analysis of
                                               Alternatives




   Source: Fundamentals of System Acquisition Course Acquisition 10 1

   ICR&D       Opportunities                  in Acquisition            Milestones and Phases


   Mission Need Statement. The mission need statement defines, describes, and
   justifies a mission need to satisfy a capability deficiency. Chairman of the Joint
   Chiefs of Staff Instruction 3 170.01, “Requirements Generation System,” June 13,
    1997, establishes polices and procedures for developing, reviewing, and validating
   the mission need statement. The Service or DOD Component must identify known




                                                                  28        ’
                          Appendix D. Acquisiton      Process and Key Documents.


systems or programs that are currently being used, developed, or produced by
other Services or allied nations that address similar needs. The DOD Component
must indicate, but not evaluate, potential areas of study or concept exploration of
allied systems. The Component prepares the mission need statement at
Milestone 0, “Approval to Conduct Concept Studies,” and forwards it to the Joint
Requirements Oversight Council for validation.

Analysis of Alternatives. The DOD or Service Components responsible for the
mission need statement must prepare an analysis of alternatives, beginning with
program initiation, Milestone I, “Approval to Begin a New Acquisition Program.”
The analyses aid and document decisionmaking by illuminating the advantages and
disadvantages of alternatives, including cost and sensitivity of each alternative to
possible changes in key assumptions, and including discussion of interoperability
and commonality of components or systems that are similar in finction to other
DOD or allied programs. The analysis of alternatives also links system
requirements and system evaluation measures of effectiveness. For each system,
PA&E prepares draft guidance on key elements of the analysis of alternatives to
include alternatives, models, effectiveness analysis, cost-effectiveness analysis, and
sensitivity analysis and forwards the guidance to the integrated product team
convened to prepare the analysis of alternatives.

Acquisition Strategy. The DOD or Service Component uses the acquisition
strategy for program execution, beginning at Milestone I, “Approval to Begin a
New Acquisition Program” The goal is to develop an acquisition strategy to
minimize the time and cost to satisfjr the need. The strategy addresses cost, risk,
management, contract approach, and the potential for enhancing reciprocal
Defense trade and cooperation, including ICR&D, and production.




                                      29
 Appendix E. List of Acquisition Category I
 Programs Surveyed


 DOD
       Chemical Demilitarization Program-Cooperative    Threat Reduction*
       Chemical Demilitarization Program-Alternative Technologies and Approaches*
       Defense Message System*
       Global Broadcast Service
       Joint Strike Fighter*
       National Polar Orbiting Operational Environmental Satellite System*

. Army
       Abrams Tank Upgrade-Ml Al
       Advanced Anti-Tank Weapon System (Javelin)
       Advanced Field Artillery Tactical Data System*
       All Source Analysis System (Army Tactical Command and Control System)*
       Advanced Field Artillery System/Future Armored Re-supply Vehicle-Crusader*
       Advanced Threat Infrared Countermeasures/Common     Missile Warning System
       Army Tactical Missile System-Brilliant Armor Submunition/Anti-Personnel
          Anti-Material Blocks I and IA*
       Bradley Fighting Vehicle System
       Combat Service Support Control System (Army Tactical Command and Control
          System)*
       Family of Medium Tactical Vehicles*
       Follow-on to Tube-Launched Optically Tracked Wire Guided Missile*
       Forward Area Air Defense Command, Control, and Intelligence System
       Helicopter-Blackhawk    Utility Helicopter
       Helicopter-Comanche
       Helicopter-Kiowa Warrior
       Helicopter-Longbow     Apache*
       Hellfire Modular Missile System
       Joint Surveillance and Target Attack Radar System Ground Station Module
         System
       Maneuver Control System (Army Tactical Command and Control System)*
       Multiple Launch Rocket System Upgrade
       Secure Mobile Anti-Jam Reliable Tactical Terminal*
       Sense and Destroy Armor*
       Single-Channel Ground and Airborne Radio System-VHF




       * Programs that responded to our survey.



                                          30
               .

                     Appendix E. List of Acquisition   Category I Programs Surveyed


Navy
       Advanced Amphibious Assault Vehicle*
       Aircraft Carrier Nimitz Class Nuclear Powered (CVN-68)
       Aircraft E-2C Reproduction Aircraft
       Aircraft F/A- 18 E/F Hornet Aircraft
       Air-to-Air Missile Upgrade*
       Amphibious Support Ship-LHD I*
       Amphibious Support Ship-LPD 17
       Coastal Minehunter-MHC 5 1*
       Cooperative Engagement Capability*
       Fast Combat Support Ship (AOE-6)
       Guided Missile Destroyer (DDGS I)*
       Joint Standoff Weapon
       Joint Service Advanced Vertical Lift Aircraft V-22*
       Multi-Functional Information Distribution System
       Multi-Mission Helicopter Upgrade-SH-6OR
       Navy Extremely High Frequency Satellite Communication Program
       New Attack Submarine-NSSN*
       Sea Launched Ballistic Missile Trident II
       Sea Launched Cruise Missile-Tomahawk
       Short Take-Off and Landing Close Air Support Aircraft-Remanufacture (AV-8B)
       Standard Surface-to-Air Missile (Block IV)
       Strategic Sealift”
       Submarine-Seawolf-SSN     21
       Surface Ship Anti-Submarine Warfare System (AN SQQ-89)*
       Undergraduate Jet Pilot Training System-T-45TS*
       United Stated Marine Corps Helicopter H-l Upgrades Advanced Medium Range

Air Force

       Advanced Medium Range Air-to-Air Missile
       Airborne Warning and Control System Radar Systems Improvement Program*
       Airborne Laser*
       Aircraft C- 13OJ-Hercules*
       Aircraft F-22
       B- 1 Aircraft Conventional Mission Upgrade*
       B-2A Aircraft
       C- 17A Globemaster III Aircraft*
       Cheyenne Mountain Upgrade
       Defense Meteorological Satellite Program
       Defense Support Programs Satellite System/Space-Based Infrared System
         Program
       Evolved Expandable Launch Vehicle
       Global Positioning System, Navstar
       Joint Air-to-Surface Standoff Missile
       Joint Direct Attack Munitions*
       Joint Primary Aircraft Training System

       * Programs that responded to our survey.


                                          31
Appendix E. List of Acquisition   Category I Programs Surveyed


       Joint Services Imagery Processing System
       Joint Surveillance and Target Attack Radar System
       Joint Tactical Information Distribution System
       Milstar Satellite and User Equipment
       Minuteman III Guidance Replacement Program
       Minuteman III Propulsion Replacement Program
       National Airspace Systems
       Sensor Fuzed Weapon*
       Titan IV Rocket

Ballistic Missile Defense Organization
       Medium Extended Air Defense System*
       Missile-Patriot Advanced Capability-3*
       National Missile Defense*
       Navy Area Theater Ballistic Missile Defense
       Navy Theater Wide Ballistic Missile Defense System
       Theater High Altitude Area Defense




       * Programs that responded to our survey.




                                          32
Appendix F. Service Process for Identifying
International Cooperative Opportunities

    Army Identification Processes. The Army uses two processes to identify
    ICR&D opportunities.     One allows Army officials to suggest a cooperative venture
    with an international partner through informal meetings with our allies, at forums
    such as general officer staff talks, research and development symposiums, or
    standardization groups. The informal process usually fosters cooperation in the
    areas of data exchange agreements or the NATO cooperative research and
    development programs that are referred to as Nunn-funded projects.

    The Army also identifies cooperative opportunities through the requirements
    generation process, which begins with the future warfighting vision of the Army.
    The Army develops future operational capabilities that become the focus of the
    integrated concept team analyses. The team, consisting of the developer, user, and
    other interested Army offlces, conducts the reviews and analyzes the user-required
    capability to ensure that the need can only be met by a material solution. When
    confirmed, the proponent combat developer prepares and coordinates the mission
    need statement within the Army and then submits it to the Joint Requirements
    Oversight Council for validation.

    For Acquisition Category I programs, before Milestone I, the Army organization
    responsible for the mission need statement prepares an analysis of alternatives and
    an acquisition strategy. The analysis of alternatives provides information on
    operational capabilities, potential technology concepts, and materiel solutions that
    could satisfy the mission need statement in determining whether any of the
    proposed alternatives offer sufficient military or economic benefit. The acquisition
    strategy identifies alternative approaches to solve the requirements.

    Navy Identification Process. The Navy also uses two processes to identify
    international cooperative research and development opportunities.      The informal
    process is similar to the Army process. The Navy formal requirements generation
    process is a 12-step process in which the program sponsor reviews the deficiency
    to ensure that the Navy has evaluated all potential doctrine, training, leader
    development, and organizational solutions. For an Acquisition Category ID
    program, the sponsor prepares a draft mission need statement to Navy assessment
    officials for administration, tracking, and evaluation by other Services for joint
    potential. However, the Navy does not distribute the mission need statement to
    the Navy International Program Office. The Chief of Naval Operations endorses
    the mission need statement and sends it to the Joint Requirements Oversight
    Council for validation.

    The Navy program sponsor must also prepare an analysis of alternatives that
    identifies the activity responsible for conducting the analysis, a set of alternatives
    or issues that the Navy must address, a timetable, and any operational constraints.

    At program initiation, the program manager develops the acquisition strategy. The
    program manager consults with the Navy International Program Office during
    development of the international element of the program’s acquisition strategy to



                                           33
Appendix F. Service Process for Identifying International
Cooperative Opportunities


       obtain relevant international program information, such as existing or proposed
       research, development, and acquisition; international agreements; and data
       exchange agreements with allied nations.

       Air Force Identification Process. The Air Force also uses two methods to
       identity international cooperative research and development opportunities.       The
       informal method is similar to that used by the Army. The formal method is the
       Air Force planning process, which identifies mission deficiencies, analyzes possible
       solutions, assesses combat capability, and determines combat readiness. The
       process has four steps. For the first step, major commands perform a mission area
       assessment based on top-level guidance, such as the Defense Planning Guidance,
       to identify operational and support tasks to achieve military objectives. The
       second step uses a mission-need analysis to assess Air Force ability to accomplish
       the tasks. For the third step, major commands develop a mission need statement
       to document specific material deficiencies. The Air Force conducts steps three and
       four during the mission solution analysis by technical planning IPTs that coordinate
       and provide direct linkage between acquisition and war-fighting communities. The
       teams include functional experts from all disciplines. The teams evaluate the
       solutions and produce cost-benefit-weighted     lists of potential solutions to meet the
       user’s need. In preparing the analysis of alternatives, the lead major command
       convenes a study team that prepares a study plan to guide the effort. The team
       explores the issues and alternatives and determines the preferred solution. The
       Air Force considers the results of the analysis of alternatives, selects the preferred
       alternative, and prepares the acquisition strategy.




                                             34
Appendix G. Report Distribution


Office of the Secretary
 Under Secretary of Defense for Acquisition and Technology
    Director, Defense Research and Engineering
    Deputy Under Secretary of Defense (Acquisition Reform)
    Deputy Under Secretary of Defense (Logistics)
    Deputy Under Secretary of Defense (International and Commercial Programs)
    Director, Defense Procurement
    Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense for Policy
 Under Secretary of Defense (Comptroller)
    Deputy Chief Financial Officer
    Deputy Comptroller (Program/Budget)
    Director, Program Analysis and Evaluation
,Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
 Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Research, Development and Acquisition)
   Deputy Under Secretary of the Army (International Affairs)
Commander, Army Training and Doctrine Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Chief of Naval Operations
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
   Deputy Under Secretary of the Air Force (International Affairs)
Air Force Deputy Chief of Staff, Air and Space Operations
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Ballistic Missile Defense Organization
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency




                                             35
Appendix G. Report Distribution




Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional       committees
  and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                             36
Part III - Management   Comments
Program Analysis and Evaluation Comments


                                OFFICE       OF THE     SECRETARY                  OF DEFENSE
                                               1SOD DEFENSE PENTAGON
                                             WASHINGTON, D.C. 20301-1800


                                                   March       31,     1998




     MEMORANDUM FOR THE DoD INSPECTOR GENERAL

     SUBJECT? Comments on Draft Audit Report on International Cooperative Research and
              Development Program (Project No. 7AB-0026) (Your January 27, I998 Memo)

             We have reviewed the subject audit report and concur in general on your Endings and
     recommendations in all but one area of Finding A “International Cooperative Research and
     Development Program”. I would like to clarify policy as we understand it and point out some
     additional facts about specific programs you have used as examples in the report that may impact
     your recommendations.

             First, we disagree with your conclusion that the Joint Direct Attack Munitions program
     mission need statement did not consider international cooperative research and development
     partnership (page 11 of your report). The JDAM requirement was to acquire an all-weather
     precision guided munition as a means to make the existing inventory of U.S. general-purpose
     bombs all-weather and more accurate. The acquisition approach was structured to satisfy the
     urgent need of the U.S military. thus the program was put on a fast fill track and became a pilot
     program of Acquisition Reform. The allied system you refen-ed to was considered and, as you
     pointed out, did not satisfy any of the above mentioned requirements.

             Second. we disagree with your interpretation of the policy on both the role PA&E plays in
     the process when a potential international partner is involved and who is included on the AoA
     IPT. Page 13 of your report states:

                     “If the analysis of alternatives IPT does not identify a potential allied partner
            during the analysis of alternatives process, and if the mission need statement has not
            identitied a potential allied patmer, then PA&E        will not direcf the analysis of
            altematives   IPT   to analyze   an inrernational        cooperative    opportunity.   PA&E   o&als
            infomed   us that the DlJSD(l&CP)       is not pan of rhe analysis of alternatives       IPTaml   has
            a role only if it already has allied involvement in a similar project.” [italics added]

     Neither of these points is entirely correct. PA&E provides the AoA guidance; the AoA IPT (of
     which PA&E is a major player) acts on that guidance. If international/aIlied systems exist that
     are potential alternatives, they am included by PA&E as a matter of practice. Regarding your
     second point, the DUSD(L%CP) is an OIFT member. The DUSD(MCP) principal and/or his
     empowered Action Officer have the duty and ability to bring international opportunities to the
     attention of the OIPT at any milestone program review. Moreover, every OIPT member has the
     opportunity to place an Action Officer on the AoA IPT. However. they generally choose to be
     members only in the case where there is a clear-cut international alternative to be examined. For
     example, they were well represented in the AIM-9X AoA because ASRAAM was the principal




                                                           f



                                                                 38
                                                       Program Analysis and Evaluation                 Comments


                                                                                                         Final     Report
                                                                                                           Reference




alternative and             at the        of the          AoA because              was a
alternative. In     of tbe         mentioned policy       factual clarificatio~~s, suggest you
         your recommendation       page 13       sentence in     paragraph beginning                      Revised
Director, Program           and Evaluation (PABtE), ovences.....“) to tbe following:
lJSD(A&T) should ensure DUSD(I&CP) participates on the analysis of alternatives IPTfor all
MDAPprogram reviews so that h&he may identify potential international partnerships that the
IPT could evaluate.

         Finally. we would like to clarify tbe facta on tbe discussion of acquisition strategy plans
for JASSM on page 13. Your description gives the impression we were planning to wait on a
decision on JASSM until after the United Kingdom awarded their contract for the
Conventionally Armed Standoff Munition (CASOM) so as to satisfy the international
cooperation requirement. W1 did not delay our decision on JASSM; tbe US was behind tbe UK
schedule from tbe beginning. We were cooperating with the British, via an MOU, in the
acquisition process. III an attempt to provide insight as to whether tbe potential JASSM
contractors would satisfy the CASOM requirement, the British participated in our source
selection process. We were not able to do so on their selection, but retained the option of
possible cooperation depending on wbom they chose as their CASOM contractor. However,
when the UK selected a French contractor whose design did not satisfy the JASSM requirement.
we proceeded with our selection of a domestic contractor to satisfy the now-domestic JASSM
requirement.

        I hope tbe following provides helpful information on your report. Addmss further
discussion items to Russ Vogel, 695-7282, or Paul Farmer, 697-0521.




                                     /liitf-~~
                                    ’ Acting Director, PA&E




                                                  39
Audit Team Members

The Acquisition Management Directorate, OffIce of the Assistant Inspector
General for Auditing, DOD, produced this report

Thomas F. Gimble
Patricia A. Brannin
Raymond A. Spencer
Thomas S. Bartoszek
Carolyn R. Davis
Dora Y. Lee
Robin G. McCoy
William F. Bazemore
Herbert L. Braun
Eric D. Broderious
Jerry Hall
Sandra S. Morrell
Kathryn J. Ross
Sonya M. Mercurius
